No. 20-1505

 

IN THE

Supreme Court of the Gnited States

 

ZAINAB MERCHANT, ET AL.,

Petitioners,
v.

ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND SECURITY, ET AL.,

Respondents.

 

CERTIFICATE OF SERVICE

 

I, Brian R. Frazelle, do hereby declare that on May 28, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioners

on counsel for each party to the above proceedings as follows:

Esha Bhandari Elizabeth B. Prelogar

American Civil Liberties Union Found. Acting Solicitor General

125 Broad St., 18th Floor United States Dept. of Justice

New York, NY 10004 950 Pennsylvania Ave., N.W.

ebhandari@aclu.org Washington, DC 20530-0001

(212) 549-2500 SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Counsel of Record for Petitioners Counsel of Record for Respondents

Zainab Merchant, et al. Alejandro Mayorkas, et al.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 28, 2021.

rox Fray

Brian R. Frazelle
Counsel for Amicus Curiae
